               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03417-34


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

    Portland VA Medical Center 

         Portland, Oregon 





January 17, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       IT         information technology

                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NA         not applicable
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       primary care management module
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                                           CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     6

  MM ..........................................................................................................................    8

  DWHP Proficiency ..................................................................................................              9


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                           10

  B. PACT Compass Metrics ....................................................................................                    12

  C. VISN Director Comments ..................................................................................                    16

  D. Facility Director Comments ...............................................................................                   17

  E. OIG Contact and Staff Acknowledgments .........................................................                              22

  F. Report Distribution .............................................................................................            23

  G. Endnotes ...........................................................................................................         24





VA OIG Office of Healthcare Inspections
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of November 4, 2013, at the
following randomly selected CBOCs which are under the oversight of the Portland VA
Medical Center and Veterans Integrated Service Network 20:

   North Coast CBOC, Warrenton, OR

   Salem CBOC, Salem, OR

Review Results: We conducted four focused reviews and made recommendations
in all of the review areas:

Environment of Care. Ensure that:

    A separate room is provided to store medical (infectious) waste at the Salem CBOC.

    Signage identifying the location of fire extinguishers is installed at the North Coast
     CBOC.

    Information Technology (IT) server closet at the North Coast CBOC is maintained
     according to IT safety and security standards.

Alcohol Use Disorder. Ensure that CBOC/PCC:

    Staff consistently document the offer of further treatment to patients diagnosed with
     alcohol dependence.

    Registered Nurse Care Managers receive motivational interviewing and health
     coaching training within 12 months of appointment to Patient Aligned Care Team.

Medication Management. Ensure that CBOC/PCC staff:

    Document medication reconciliation that              includes    the   newly    prescribed
     fluoroquinolone in the electronic health record.

    Provide medication counseling/education that includes the fluoroquinolone.

    Document the evaluation of patient’s level of understanding for the medication
     education.

Designated Women’s Health Providers’ Proficiency. Ensure that:

    All designated women’s health providers are identified with the women’s health
     indicator in the Primary Care Management Module.


VA OIG Office of Healthcare Inspections                                                        i
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 16–21, for the full text of the Directors’ comments.) We consider
recommendations 1, 2, and 3 closed. We will follow up on the planned actions for the
open recommendations until they are completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                                      CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of the review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                             1
                                      CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


Table 1. CBOC/PCCs Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the North Coast and
Salem CBOCs. The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement.

Table 2. EOC

 NM                    Areas Reviewed                                       Findings
        The CBOC’s location is clearly identifiable
        from the street as a VA CBOC.
        The CBOC has interior signage available
        that clearly identifies the route to and
        location of the clinic entrance.
        The CBOC is Americans with Disabilities
        Act accessible.
        The furnishings are clean and in good
        repair.
        The CBOC is clean.
        The CBOC maintains a written, current
        inventory of hazardous materials and
        waste that it uses, stores, or generates.
        An alarm system and/or panic buttons are
        installed in high-risk areas (e.g., MH
        clinic).
        Alcohol hand wash or soap dispenser and
        sink are available in the examination
        rooms.
        Sharps containers are secured.
        Safety needle devices are available.
  X     The CBOC has a separate storage room              The Salem CBOC did not have a separate
        for storing medical (infectious) waste.           storage room for storing medical
                                                          (infectious), and clean supplies were kept
                                                          in the dirty utility room.
        The CBOC conducts fire drills (at least
        every 12 months.)
        Means of egress from the building are
        unobstructed.
        Access to fire alarm pull stations is
        unobstructed.



VA OIG Office of Healthcare Inspections                                                                 3
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


 NM                   Areas Reviewed                                         Findings
        Access to fire extinguishers is
        unobstructed.
  X     The CBOC has signs identifying the               There were no signs identifying the location
        locations of fire extinguishers.                 of fire extinguishers at the North Coast
                                                         CBOC.
        Exit signs are visible from any direction.
        No expired medications were noted during
        the onsite visit.
        All medications are secured from
        unauthorized access.
        PII is protected on laboratory specimens
        during transport so that patient privacy is
        maintained.
        Adequate privacy is provided to patients in
        examination rooms.
        Documents containing patient-identifiable
        information are not lying around, visible, or
        unsecured.
        Window coverings provide privacy.
        The CBOC has a designated examination
        room for women veterans.
        Adequate privacy is provided to women
        veterans in the examination room.
  X     The IT network room/server closet is          Access to the IT network room/server
        locked.                                       closet at the North Coast CBOC was not
                                                      documented or restricted to personnel
                                                      authorized by Office of IT.
        All computer screens are locked when not
        in use.
        Staff use privacy screens on monitors to
        prevent unauthorized viewing in high-
        traffic areas.
        EOC rounds are conducted semi-annually
        (at least twice in a 12-month period).
        The CBOC has an AED.
        AED batteries are current (within the
        manufacturer’s posted expiration date).
        Safety inspections are performed on the
        CBOC medical equipment in accordance
        with VA and Joint Commission standards.
        The parent facility includes the CBOC in
        required education, training, planning, and
        participation leading up to the annual
        disaster exercise.



VA OIG Office of Healthcare Inspections                                                                 4
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


 NM                   Areas Reviewed                                        Findings
        The parent facility’s Emergency
        Management Committee evaluates CBOC
        emergency preparedness activities,
        participation in annual disaster exercise,
        and staff training/education relating to
        emergency preparedness requirements.

1. 	 We recommended that a separate room is provided to store medical (infectious) waste at
     the Salem CBOC.

2. 	 We recommended that signage is installed at the North Coast CBOC to clearly identify the
     location of fire extinguishers.

3. 	 We recommended that the IT server closet at the North Coast CBOC is maintained
     according to IT safety and security standards.




VA OIG Office of Healthcare Inspections                                                                 5
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

 NM                   Areas Reviewed                                       Findings
        Alcohol use screenings are completed
        during new patient encounters, and at
        least annually.
        Diagnostic assessments are completed
        for patients with a positive alcohol
        screen.
        Education and counseling about drinking
        levels and adverse consequences of
        heavy drinking are provided for patients
        with positive alcohol screens and
        drinking levels above National Institute
        on Alcohol and Alcoholism guidelines.
  X     Documentation reflects the care provided        We did not find documentation of the offer of
        and the offer of further treatment for          further treatment for 2 of 6 patients
        patients diagnosed with alcohol                 diagnosed with alcohol dependence.
        dependence.
        For patients with AUD who decline
        referral to specialty care, CBOC/PCC
        staff monitor them and their alcohol use
        condition.
        Counseling, education, and brief
        treatments for AUD are provided within 2
        weeks of positive screening.
  X     CBOC/PCC RN Care Managers have                  We found that 29 (69 percent) of 42 RN Care
        received MI training within 12 months of        Managers did not receive MI training within
        appointment to PACT.                            12 months of appointment to PACT.
  X     CBOC/PCC RN Care Managers have                  We found that 13 (31 percent) of 42 RN Care
        received National Center for Health             Managers did not receive health coaching
        Promotion and Disease Prevention                training within 12 months of appointment to
        approved health coaching training (most         PACT.
        likely TEACH for Success) within 12
        months of appointment to PACT.
        The facility complied with any additional
        elements required by VHA or local policy.


VA OIG Office of Healthcare Inspections                                                                 6
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


4. 	 We recommended that CBOC/PCC staff consistently document the offer of further
     treatment to patients diagnosed with alcohol dependence.

5. 	 We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
     training within 12 months of appointment to PACT.




VA OIG Office of Healthcare Inspections                                                                 7
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

 NM                  Areas Reviewed                                       Findings
  X     Clinicians documented the medication            We did not find documentation that
        reconciliation process that included the        medication reconciliation included the newly
        fluoroquinolone.                                prescribed fluoroquinolone in 15 (38
                                                        percent) of 39 patients’ EHRs.
        Written information on the patient’s
        prescribed medications was provided at
        the end of the outpatient encounter.
  X     Medication counseling/education for the         We did not find documentation of medication
        fluoroquinolone was documented in the           counseling that included the fluoroquinolone
        patients’ EHRs.                                 in 7 (18 percent) of 39 patients’ EHRs.
  X     Clinicians documented the evaluation of         Clinicians did not document the level of
        each patient’s level of understanding for       understanding for 6 (19 percent) of 32
        the education provided.                         patients.
        The facility complied with local policy.

6. 	 We recommended that CBOC/PCC staff document medication reconciliation that includes
     the newly prescribed fluoroquinolone in the EHR.

7. 	 We recommended that CBOC/PCC staff provide                          and    document      medication
     counseling/education that includes the fluoroquinolone.

8. 	 We recommended that CBOC/PCC staff document the evaluation of patient’s level of
     understanding for the medication education.




VA OIG Office of Healthcare Inspections                                                                 8
                                          CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHP proficiencies. The table below shows the area reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement.

Table 5. DWHP Proficiency

 NM                     Areas Reviewed                                     Findings
           CBOC and PCC DWHPs maintained
           proficiency requirements.
           CBOC and PCC DWHPs were                      Four of 19 DWHPs were not designated with
     X     designated with the WH indicator in the      the WH indicator in the PCMM.
           PCMM.

9.       We recommended that the Chief of Staff consistently ensure that all DWHPs are designated
         with the WH indicator in the PCMM.




VA OIG Office of Healthcare Inspections                                                                 9
                                                                                CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                                                                    Appendix A


                                                                    CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                  Encountersd

                               Station                   CBOC
       Location        State              Localitye                    MHg        PCh       Otheri      All       MHg         PCh      Otheri       All
                                  #                       Sizef
Vancouver               WA      648A4       Urban      Very Large     5,937     11,504     14,137     20,512     68,815     24,937     75,804    169,556
West Metro Portland     OR      648GF       Urban      Very Large     5,904      6,845     12,521     17,229     10,098     13,504     32,885     56,487
East Metro Portland     OR      648GE       Urban         Large       1,053      9,293      4,316      9,945      3,112     18,938     13,490     35,540
Salem                   OR      648GB       Urban         Large       1,420      8,692      3,645      9,272      5,855     17,428      9,335     32,618
Bend                    OR      648GA       Urban         Large        965       5,724      4,905      6,830      5,441     11,676     15,906     33,023
West Linn               OR      648GG       Urban         Large        607       4,512      1,948      5,267      1,757      6,206      4,295     12,258
North Coast             OR      648GD       Rural       Mid-Size       221       1,452       646       1,531      1,071      3,649      1,693      6,413




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx 

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  MH includes stop codes in the 500 series, excluding 531 and 563, in the primary position.

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.


VA OIG Office of Healthcare Inspections                                                                                                                    10
                                     CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


                                  CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.

                                                                                              Tele-Health
            CBOC             Specialty Care Servicesj          Ancillary Servicesk
                                                                                               Servicesl
    Vancouver                     Optometry                     Rehabilitation             Tele Primary Care
                                    Dental                        Radiology
                                   Podiatry                        Audiology
                                  Geriatrics              Diabetic Retinal Screening
                              Women's Cancer Care             MOVE! Programm
                                                                 Social Work
                                                             Prosthetics/Orthotics
                                                                  Polytrauma
                                                              Speech Pathology
                                                              Spinal Cord Injury
                                                                  Pharmacy
                                                                    Nutrition
                                                          VICTORS & Advanced Low
                                                                    Visionn
                                                                   Chaplain
    West Metro Portland            Optometry                      Radiology                Tele Primary Care
                                   Orthopedics                     Audiology
                                 Ophthalmology            Diabetic Retinal Screening
                                    Neurology                    Social Work
                              Ear, Nose and Throat                Pharmacy
                                                               MOVE! Program
                                                                    Nutrition
    East Metro Portland                  ---                     Social Work               Tele Primary Care
                                                                  Pharmacy
                                                                    Nutrition
    Salem                         Plastic Surgery         Diabetic Retinal Screening       Tele Primary Care
                                                                 Social Work
                                                               MOVE! Program
    Bend                            Optometry                   Rehabilitation             Tele Primary Care
                                  Ophthalmology                   Audiology
                                   Dermatology            Diabetic Retinal Screening
                                  Plastic Surgery                Social Work
                                                               MOVE! Program
    West Linn                            ---              Diabetic Retinal Screening       Tele Primary Care
                                                                 Social Work
                                                               MOVE! Program
    North Coast                          ---                   MOVE! Program               Tele Primary Care

 




j
  Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

k
  Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

l
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

m
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 

n
  The Visual Impairment Centers to Optimize Remaining Sight (VICTORS) concept was developed to complement 

existing inpatient Blind Rehabilitation Centers to care for Veterans with significant visual impairment. 

VA OIG Office of Healthcare Inspections                                                                         11
                                                                                     CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                                                                         Appendix B


                                                                     PACT Compass Metrics

                                                       FY 2013 Average 3rd Next Available in PC Clinics
                                35.0
    Average Number of Days




                                30.0
                                25.0
                                20.0
                                15.0
                                10.0
                                  5.0
                                  0.0
                                                                                                               East Metro    West Metro
                                                    Portland   Vancouver     Bend     Salem     North Coast                                   West Linn
                                        VHA Total                                                               Portland      Portland
                                                     (648)      (648A4)    (648GA)   (648GB)     (648GD)                                      (648GG)
                                                                                                                (648GE)       (648GF)
                             OCT FY13     14.6        9.5        12.4        6.6       13.8         11.1          13.4            7.4
                             NOV FY13     15.2        9.2        15.0        7.6       10.2         7.1           18.8            8.7
                             DEC FY13     13.8       13.3        14.4        8.4       13.7         5.9           12.5            18.2
                             JAN FY13     14.0       10.3        16.1        6.7       11.6         10.6          11.6            10.6           12.3
                             FEB FY13     14.8       11.9        18.4        7.8       28.6         9.3           13.6            22.4           11.4
                             MAR FY13     13.3       10.6        15.3        5.1       14.1         6.4            9.4            14.3           15.6
                             APR FY13     14.4       10.3        18.8        9.0       16.4         5.5           11.8            11.8           10.9
                             MAY FY13     16.0       13.9        28.3        9.6       17.6         3.0            9.8            13.3           13.1
                             JUN FY13     14.2        6.0        20.1        6.8       28.9         6.6            6.7            11.7           18.8
                             JUL FY13     14.6        8.6        24.2        8.1       18.8         5.6            5.9            25.9           20.2
                             AUG FY13     15.7        9.7        18.4        8.3       16.8         6.6            7.8            9.5            20.9
                             SEP FY13     13.4       11.4        19.6        6.2       16.2         13.5           9.8            9.4            14.7


Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the
appointment or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the
national to the division level. Blank cells indicate the absence of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                                                    CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                                                            FY 2013 Established PC Prospective Wait Times 7 Days
                                            100%
        Percentage of Patients Scheduled 

                                            80%
         Within 7 Days of Desired Date




                                            60%


                                            40%


                                            20%


                                             0%
                                                   OCT FY13 NOV FY13 DEC FY13   JAN FY13   FEB FY13 MAR FY13 APR FY13 MAY FY13 JUN FY13   JUL FY13   AUG FY13 SEP FY13
      VHA Total                                     83.5%    81.1%    82.4%      82.6%      83.2%    83.6%    84.0%    84.0%     84.1%     84.3%      84.5%    84.7%
      Portland (648)                                62.2%    59.3%    59.6%      55.5%      64.4%    70.2%    72.1%    74.8%     80.5%     82.5%      74.6%    77.4%
      Vancouver
                                                    66.0%    68.2%    69.7%      64.2%      68.4%    61.5%    58.8%    63.2%     64.4%     61.5%      56.7%    59.2%
       (648A4)
      Bend (648GA)                                  74.1%    73.5%    81.9%      74.5%      73.0%    75.9%    74.3%    71.0%     78.1%     78.3%      80.5%    78.8%
      Salem (648GB)                                 60.3%    56.1%    54.8%      59.0%      59.3%    55.4%    56.7%    54.2%     53.8%     51.5%      53.8%    59.2%
      North Coast
                                                    75.8%    78.7%    81.7%      79.0%      80.0%    85.7%    87.2%    92.3%     89.3%     87.7%      81.3%    85.7%
       (648GD)
      East Metro Portland
                                                    64.2%    53.1%    56.7%      57.4%      54.2%    51.0%    59.8%    65.6%     67.0%     74.5%      73.3%    71.8%
            (648GE)
      West Metro Portland
                                                    63.0%    65.9%    73.9%      66.9%      60.1%    54.6%    52.8%    64.4%     64.6%     66.5%      73.8%    73.6%
           (648GF)
      West Linn (648GG)                                                          68.9%      60.9%    66.6%    62.7%    61.3%     60.9%     58.1%      56.5%    58.8%


 Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
 The total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on
 the 1st and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the
 absence of reported data.
VA OIG Office of Healthcare Inspections                                                                                                                                13
                                                                                                                    CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                                                                                  FY 2013 Ratio of ER Encounters While on Panel to

                                                                    30%
                                                                                   PC Encounters While on Panel (FEE ER Included)


                     Percentage of ER Encounters to PC Encounters
                                                                    28%
                                                                    26%
                                                                    24%
                                                                    22%
                                                                    20%
                                                                    18%
                                                                    16%
                                                                    14%
                                                                    12%
                                                                    10%
                                                                     8%
                                                                     6%
                                                                     4%
                                                                     2%
                                                                     0%
                                                                          OCT       NOV     DEC     JAN      FEB      MAR      APR     MAY      JUN               AUG      SEP
                                                                                                                                                       JUL FY13
                                                                          FY13      FY13    FY13    FY13    FY13      FY13     FY13    FY13     FY13              FY13    FY13
         VHA Total                                                        16.3%     16.3%   16.4%   16.3%   16.3%    16.3%    16.1%    16.1%   16.0%    15.9%     15.8%   15.7%
         Portland (648)                                                   26.4%     26.2%   26.2%   26.1%   26.0%    26.4%    26.2%    26.2%   25.7%    25.1%     25.2%   24.8%
         Vancouver (648A4)                                                21.1%     21.1%   21.3%   21.2%   21.0%    21.4%    21.0%    21.3%   21.2%    21.5%     22.2%   22.1%
         Bend (648GA)                                                     7.5%      7.4%    7.5%    7.7%    7.6%      7.6%     7.5%    7.3%     7.1%    7.2%      6.8%    6.6%
         Salem (648GB)                                                    17.4%     17.5%   17.4%   17.0%   17.1%    16.2%    16.2%    15.8%   15.9%    15.7%     14.8%   15.0%
         North Coast (648GD)                                              9.1%      9.4%    9.5%    9.8%    9.3%      9.6%    10.0%    10.1%    9.5%    9.7%      9.7%    9.6%
         East Metro Portland
                                                                          23.6%     24.2%   24.0%   24.1%   24.1%    23.9%    23.7%    23.3%   23.3%    22.9%     22.6%   22.1%
               (648GE)

         West Metro Portland

                                                                          22.0%     22.2%   22.2%   22.4%   22.6%    23.3%    23.4%    23.8%   23.9%    23.6%     22.7%   23.6%
              (648GF)
         West Linn (648GG)                                                                                           25.7%    25.7%    25.7%   25.8%    25.7%     25.6%   25.1%



Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                                           14
                                                                              CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR



                                           FY 2013 2‐Day Contact Post Disharge Ratio

        100%
         90%
         80%
         70%
         60%
         50%
         40%
         30%
         20%
         10%
          0%
                                                                                                          East Metro    West Metro
                                                Vancouver                                  North Coast                                 West Linn
                  VHA Total    Portland (648)               Bend (648GA)   Salem (648GB)                   Portland      Portland
                                                 (648A4)                                    (648GD)                                    (648GG)
                                                                                                           (648GE)       (648GF)
      OCT FY13      52.8%          71.4%          57.3%         64.9%          69.8%         80.0%          75.0%          81.6%
      NOV FY13      52.9%          71.7%          54.7%         48.3%          64.2%         30.8%          75.5%          69.1%
      DEC FY13      51.5%          68.6%          54.1%         48.5%          65.1%         61.5%          72.6%          70.5%
      JAN FY13      57.2%          76.4%          55.9%         36.0%          59.8%         72.7%          69.0%          68.5%

      FEB FY13      60.4%          78.2%          58.6%         41.4%          60.7%         72.7%          59.7%          62.7%

      MAR FY13      64.4%          69.5%          53.9%         55.9%          71.1%         77.8%          75.0%          73.3%         93.4%

      APR FY13      65.5%          69.9%          67.1%         51.5%          68.3%         77.8%          70.7%          82.8%         78.3%

      MAY FY13      66.1%          73.2%          62.0%         64.7%          72.8%         75.0%          70.5%          74.5%         74.8%

      JUN FY13      70.1%          71.5%          67.3%         63.6%          76.2%         61.5%          84.7%          74.5%         72.7%

      JUL FY13      71.1%          75.0%          56.2%         71.4%          83.1%         88.2%          73.5%          74.7%         76.2%

      AUG FY13      72.7%          75.4%          73.7%         88.9%          79.5%         71.4%          80.2%          66.3%         80.5%

      SEP FY13      68.9%          71.5%          74.8%         85.7%          69.6%         75.0%          70.1%          68.0%         71.9%





 Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary
 care patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are
 excluded from this metric. Blank cells indicate the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                            15
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                     Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                  Memorandum


           Date:       December 24, 2013

          From:        Director, VISN 20 (10N20)

       Subject: 	      CBOC and PCC Reviews of the Portland VA Medical
                       Center, Portland, OR

             To:       Director, Seattle Office of Healthcare Inspections (54SE)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)


       1. Thank y	 ou for the opportunity to respond to the proposed
          recommendations from the Community Based Outpatient Clinic and
          Primary Care Clinic Reviews at the Portland VA Medical Center,
          Portland, Oregon.

       2. Attached please find the facility concurrences and responses to each
          of the findings from the review.

       3. If you have additional questions or need further information, please
          contact Susan Gilbert, Survey Coordinator, VISN 20 at (360) 567-
          4678.




        (original signed by:)

        Lawrence H. Carroll




VA OIG Office of Healthcare Inspections                                                       16
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       December 20, 2013

          From:        Director, Portland VA Medical Center (648/P1DIR)

       Subject:        CBOC and PCC Reviews of the Portland VA Medical
                       Center, Portland, OR

             To:       Director, VISN 20 (10N20)



       I have reviewed the attached action plans for the areas of improvement
       recommended by the CBOC and PCC Reviews of the Portland VA
       Medical Center, Portland, OR and I concur with all recommended
       improvement actions.



       (original signed by:)

       MICHAEL W. FISHER
       Interim Medical Center Director




VA OIG Office of Healthcare Inspections                                                       17
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that a separate room is provided to store
medical (infectious) waste at the Salem CBOC.

Concur

Target date for completion: December 14, 2013

Facility response: Additional shelving was installed in the clean utility room. Clean,
unopened Kavi wipes, bleach wipes, and Purell hand sanitizer are now stored in the
clean utility room (#140). All medical waste is in a separate dedicated room (dirty utility
room #139).

Recommendation 2. We recommended that signage is installed at the North Coast
CBOC to clearly identify the location of fire extinguishers.

Concur

Target date for completion: November 21, 2013

Facility response: Signage clearly identifying the location of fire extinguishers has been
installed as required.

Recommendation 3. We recommended that the IT server closet at the North Coast
CBOC is maintained according to IT safety and security standards.

Concur

Target date for completion: November 21, 2013

Facility response: The North Coast server room is now locked and secure based on IT
safety and security standards. Access to the server room is restricted to authorized
personnel. The key to the server room is in the possession of the lead LPN, or delegate.
Only authorized IT personnel are given access to the server room/IT closet. A signature
log has been established to track all authorized personnel who enter the IT server
closet. Name, date of entry, and reason for entry is recorded in the log and the log entry
is signed by both the individual gaining access and the individual granting access.

Recommendation 4. We recommended that CBOC/PCC staff consistently document
the offer of further treatment to patients diagnosed with alcohol dependence.

Concur


VA OIG Office of Healthcare Inspections                                                       18
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


Target date for completion: April 30, 2014

Facility response: A refresher education will be provided to Primary Care Division (PCD)
staff physicians, nurse practitioners, contract and locum tenens staff on the importance
of offering treatment to Veterans seen in clinic who have a diagnosis of alcohol
dependence noted during their yearly AUDIT-C screen. The importance of documenting
this discussion will be included in this education. A log will be kept to ensure that 100%
of the staff providers receive this education by January 31, 2014.

Ongoing monitoring will occur to assure staff consistency of documenting the offer of
further treatment to patients with alcohol dependence. Based on results from this
monitor, expect to see treatment offering and documentation at greater than or equal to
90% compliance.

Recommendation 5. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACT.

Concur

Target date for completion: June 30, 2014

Facility response: CBOC/PCC RN Care Managers (NCMs) within the Primary Care
Division not yet trained in MI/TEACH, will be trained by June 30, 2014. A process is in
place to ensure all NCM’s obtain this training within 12 months of their assignment to
PACT. The Health Promotion Disease Prevention (HPDP) Program Manager and
Health Behavior Coordinator will work closely with the CBOC Operation Managers to
identify NCMs needing training. They will track training to ensure it is completed within
the designated 12 month time period and quarterly report the status of this training to
Primary Care Leadership.

Recommendation 6. We recommended that CBOC/PCC staff document medication
reconciliation that includes the newly prescribed fluoroquinolone in the EHR.

Concur

Target date for completion: April 30, 2014

Facility response: A refresher education will be provided to Primary Care Division and
Pharmacy Division CBOC staff on the need to perform and document medication
reconciliation in the EHR (CPRS) which specifically includes newly prescribed
flouroquinolones. A log will be kept to ensure that 100% of the identified staff receives
this education by January 31, 2014.

Ongoing monitoring will occur to assure staff consistency of performing and
documenting medication reconciliation in the EHR. This monitoring will continue until
documentation is greater than or equal to 90% compliance.




VA OIG Office of Healthcare Inspections                                                       19
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


Recommendation 7. We recommended that CBOC/PCC staff provide and document
medication counseling/education that includes the fluoroquinolone.

Concur

Target date for completion: April 30, 2014

Facility response: A refresher education to Primary Care Division (PCD) staff
physicians, nurse practitioners, contract and locum tenens staff, Registered Nurse staff,
and CBOC-based Pharmacy staff on the need to routinely perform and document
medication counseling/education in the EHR (CPRS) that specifically includes newly
prescribed flouroquinolones. A log will be kept to ensure that 100% of the identified staff
receives this education by January 31, 2014.

Ongoing monitoring will occur to assure staff consistency of performing and
documenting medication counseling/education in the EHR. This monitoring will
continue until documentation is greater than or equal to 90% compliance.

Recommendation 8.           We recommended that CBOC/PCC staff document the
evaluation of patient’s level of understanding for the medication education.

Concur

Target date for completion: April 30, 2014

Facility response: A refresher education to Primary Care Division (PCD) staff
physicians, nurse practitioners, contract and locum tenens staff, Registered Nurse staff,
and CBOC-based Pharmacy staff, on the need to routinely perform and document in the
EHR (CPRS) an assessment that indicates the Veteran’s level of understanding of the
medication education for newly prescribed medications (including flouroquinolones). A
log will be kept to ensure that 100% of the identified staff receives this education by
January 31, 2014.

Ongoing monitoring will occur to assure staff consistency of performing and
documenting an assessment indicating the Veteran’s level of understanding of the
medication education for newly prescribed medications including flouroquinolones in the
EHR (CPRS). This monitoring will continue until documentation is greater than or equal
to 90% compliance.

Recommendation 9. We recommended that the Chief of Staff consistently ensure that
all DWHPs are designated with the WH indicator in the PCMM.

Concur

Target date for completion: March 31, 2014




VA OIG Office of Healthcare Inspections                                                       20
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR


Facility response: Designation of DWHPs was corrected on November 21, 2013.
Beginning in January 2014, the Women Veterans Health Program Manager (WVHPM)
will meet with every newly hired PCP during new employee orientation to determine skill
set. Based on that interview and assessment, the WVHPM will contact our PCMM
Manager to assure that DWHP designation is entered into PCMM. The WVHPM and
Primary Care Leadership (PCL) review the list of designated DWHP Primary Care
Providers and correct any discrepancies. The PCL is the Chief of Staff designate.




VA OIG Office of Healthcare Inspections                                                       21
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                     Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Susan Tostenrude, MS, Team Leader
Contributors            Carol Lukasewicz, RN, BSN
                        Sami O’Neill, MA
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Marc Lainhart, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                       22
                                 CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                      Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 20 (10N20)
Director, Portland VA Medical Center (648/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Maria Cantwell, Jeffrey Merkley, Patty Murray, Ron Wyden
U.S. House of Representatives: Earl Blumenauer, Suzanne Bonamici,
 Jaime Herrera Beutler


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                       23
                                        CBOC and PCC Reviews at Portland VA Medical Center, Portland, OR
                                                                                            Appendix G

                                                    Endnotes 


1
     References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
      Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.
 

 




VA OIG Office of Healthcare Inspections                                                                    24
